          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


   IDENTIFYING REPRESENTATIVE
    PAYEES WHO HAD THEIR OWN
  BENEFITS SUSPENDED UNDER THE
      FUGITIVE PROVISIONS OF
        PUBLIC LAW 104-193


   October 2002   A-01-02-12073
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      October 10, 2002                                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Identifying Representative Payees Who Had Their Own Benefits Suspended Under the
           Fugitive Provisions of Public Law 104-193 (A-01-02-12073)


           Our objective was to identify fugitives whose Supplemental Security Income (SSI)
           payments were stopped under Public Law (P.L.) 104-193 but who continued to serve as
           representative payees (Rep Payee) and manage Social Security funds for other
           beneficiaries.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted the Social
           Security Administration (SSA) the authority to appoint Rep Payees to receive and
           manage these individuals’ Social Security benefit payments.1 A Rep Payee is a person,
           agency, organization, or institution selected to receive and manage benefits on behalf
           of an incapable beneficiary. Rep Payees are responsible for using Social Security
           benefits to serve the beneficiary’s best interests. Their duties2 include:
                 §   using benefits to meet the beneficiary’s current and foreseeable needs;
                 §   conserving and investing benefits not needed to meet the individual’s current
                     needs;
                 §   reporting any changes in circumstances that would affect their performance as a
                     Rep Payee;
                 §   reporting events to SSA that may affect the individual’s entitlement or benefit
                     payment amount; and
                 §   completing Representative Payee Reports for all beneficiaries and recipients
                     annually.


           1
               Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§405(j) and 1383(a)(2).
           2
               20 CFR §416.635.
Page 2 – The Commissioner


The decision to make payment through a Rep Payee is serious since it deprives the
beneficiary of direct control over his or her finances and may affect his or her manner of
living. Recognizing the potential for a Rep Payee to mishandle benefits, Congress
requires that SSA exercise extreme care in determining that a Rep Payee is needed,
selecting a Rep Payee, and monitoring the Rep Payee’s performance.

SSA has a legal obligation to review the performance and continued suitability of all
                                            3
those appointed to serve as Rep Payees. While having a criminal history is not an
absolute bar to serving as a Rep Payee, it is a strong indication the individual may no
longer be suitable to act in that capacity.4 Furthermore, according to SSA’s policies and
procedures, if the Rep Payee applicant is a convicted felon, SSA staff should look for
an alternative Rep Payee and/or make direct payment to the beneficiary unless direct
payment is prohibited.5

With the enactment of section 202 of P.L. 104-193 in August 1996, fugitive felons and
parole and probation violators are no longer eligible to receive SSI payments. To
identify SSI recipients who are fugitives, SSA matches Federal, State, and local law
enforcement fugitive data against its SSI payment records. When SSI recipients are
found to be fugitives, SSA stops their payments and assesses an overpayment for the
amount of SSI payments incorrectly paid.

SSA periodically matches its Prisoner Update Processing System with its Master
Representative Payee File (MRPF) to identify unsuitable Rep Payees and protect the
most vulnerable beneficiaries and recipients from potential abuse by these Rep Payees
who have become prisoners. However, SSA does not have a similar program to
identify and replace fugitives who are Rep Payees.

Although SSA staff informed us they perform suitability checks when there is any
activity or change in the status of a beneficiary who is also a Rep Payee, the Agency
does not have a specific policy in place that prohibits a fugitive from acting as another
beneficiary’s Rep Payee.6




3
    Program Operations Manual System (POMS), section EM-01208 section I.
4
    POMS, section EM-01208 section II.
5
    POMS, section GN 00502.133.
6
 POMS, section GN 00504.100 provides instructions on when to consider the need for a new Rep Payee.
However, fugitive status is not specifically identified as a reason to replace a Rep Payee.
Page 3 – The Commissioner


SCOPE AND METHODOLOGY
We obtained a data extract of 10,598 recipients whose SSI payments were stopped
under the fugitive provisions of P.L. 104-193 as of December 2001. We then matched
the Social Security numbers from this extract against SSA’s MRPF to identify fugitives
who were Rep Payees. The MRPF is a file of all Rep Payees, and it contained
                                                     7
5.25 million individual Rep Payees as of June 2001.

The match between our fugitive data extract and the MRPF, as well as our subsequent
analysis of these data files, identified 121 Rep Payees whose own SSI payments were
stopped because they were fugitive felons or parole or probation violators.

For these 121 fugitive Rep Payee cases, we performed the following analysis.

§   Obtained the Master Beneficiary Records (MBR) and/or Supplemental Security
    Records (SSR) for the beneficiaries who had fugitives acting as their Rep Payees.
    Using these records, we confirmed that the beneficiaries’ Old Age, Survivors and
    Disability Insurance (OASDI) benefits and/or SSI payments were paid to a fugitive
    Rep Payee.

§   Calculated the amount of benefits managed by the fugitive Rep Payee and the
    number of months they were paid (as of January 2002).

§   Calculated the amount of benefits each fugitive will manage over the next
    12 months if SSA does not take action to replace the Rep Payee.

§   Compared the addresses on the SSI fugitive records with the Rep Payee records to
    determine whether they were the same—to identify possible leads for referral to our
    Office of Investigations, which assists Federal, State, and local law enforcement
    officials with the location and arrest of fugitives.

§   Determined whether the fugitives were selected to be Rep Payees before or after
    their SSI payments were suspended.

§   Ascertained the relationship between the Rep Payees and their beneficiaries.

§   Requested and analyzed case folders to determine whether SSA conducted Rep
    Payee suitability reviews.

§   Requested and analyzed the Rep Payee accounting reports for those beneficiaries
    who had the fugitives as their Rep Payees for more than 1 year.




7
 Although a Rep Payee can be an individual or organization, we only included the 5.25 million individual
Rep Payees in our analysis—not the organizational Rep Payees.
Page 4 – The Commissioner


In addition, we:

§     Obtained 2 data extracts of 1,195 terminated Rep Payee records for recipients
      whose own SSI payments were stopped for being fugitives. (See Appendix B for
                                                               8
      details of our data files and our sampling methodology.)

§     Researched SSA’s policies and procedures related to Rep Payee suitability.

We are also performing an audit entitled, Screening Representative Payees for Fugitive
Warrants (A-01-02-12032), in which we are assessing the use of fugitive warrants as a
screening tool for Rep Payees. This audit includes all fugitive felons and parole or
probation violators who are Rep Payees—regardless of whether the Rep Payees were
also receiving SSI payments. For this audit, we matched 10 State fugitive files—which
were obtained during Fiscal Years 1999 and 2000—against SSA’s MRPF. This match
resulted in 3,473 records in which a fugitive appears to be a Rep Payee for another
             9
beneficiary.

We conducted our audit between January and June 2002 in Boston, Massachusetts.
The entities audited were SSA’s Office of Program Benefits under the Deputy
Commissioner for Disability and Income Security Programs and SSA’s field offices
under the Deputy Commissioner for Operations. We conducted our audit in
accordance with generally accepted government auditing standards.

RESULTS OF REVIEW
We identified 121 fugitives whose SSI payments were stopped under P.L. 104-193, but
who continued to serve as Rep Payees and managed over $1.4 million in Social
Security funds for 161 beneficiaries. Specifically, these 121 fugitives managed Social
Security funds totaling
      §   $650,307 for 62 SSI recipients,
      §   $606,451 for 86 OASDI beneficiaries, and
      §   $163,790 for 13 concurrent beneficiaries.10




8
    The data extracts contained 722 and 473 records, respectively, for a total of 1,195 records.
9
  Based on our sample of 368 of the 3,473 records, we will be able to estimate nationwide the number of
fugitives who are Rep Payees for other beneficiaries—regardless of whether or not the Rep Payees are
also SSI recipients.
10
  Concurrent beneficiaries are individuals entitled to receive benefit payments under both the OASDI and
SSI programs.
Page 5 – The Commissioner


We estimate that these fugitives will manage an additional $634,306 in Social Security
funds as Rep Payees over the next 12 months if they are not replaced with more
                 11
suitable payees.

On average, these fugitives managed the funds for 8 months after SSA was notified of
their fugitive status and suspended the fugitives’ own SSI payments. Additionally, 13 of
the 161 beneficiaries’ payments were being managed by fugitives who were selected as
Rep Payees after their own SSI payments were suspended for being fugitives.12 For
example, one SSI recipient had her own SSI payments suspended in April 2001 for
being a fugitive in connection with a drug charge. She was then appointed by SSA as
Rep Payee for her son’s SSI and OASDI benefit payments in November 2001—
7 months after SSA identified her as a fugitive. This fugitive Rep Payee was paid
$2,717 in benefit payments between November 2001 and January 2002 on her son’s
behalf. Even though the fugitive is the beneficiary’s mother, we believe SSA should not
allow her to serve as a Rep Payee unless the Agency re-assesses her suitability and
determines that she will manage the funds in her son’s best interest.

Types of Rep Payees and Beneficiaries

Of the 161 beneficiaries whose Social Security funds were managed by fugitives,
44 were adults and 117 were children under age 18. The chart below shows the
relationship between the Rep Payees and the beneficiaries whose funds were
managed by the fugitives.

                           Relationship of Rep
                              Payee to the                   Number of
                               Beneficiary                  Beneficiaries
                               Mother                            84
                               Father                            42
                               Stepfather                          2
                               Grandparent                         4
                               Other Relative                    11
                               Spouse                              5
                               Child                               1
                               Other                             12
                               Total                            161




11
  This estimate was calculated by multiplying the January 2002 SSI payment amount times 12 months—
and it presumes no change in other eligibility factors during this time period.
12
  For the remaining 148 beneficiaries, the Rep Payees were selected before SSA’s (1) notification from
law enforcement that the individuals were fugitives and (2) subsequent suspension of the fugitives’ own
SSI payments.
Page 6 – The Commissioner


Additionally, the Rep Payees were wanted for various types of felony warrants, as
shown in the figure below.

            Type of Crimes Charged or Committed by Fugitives who are Rep Payees
                                            Kidnapping, Assault (7%)
                        7%
           17%
                               13%          Burglary, Larceny, Stolen Vehicles, Forgery, Fraud (13%)

                                            Drugs (13%)

                                            Parole/Probation Violations (28%)
                                     13%
     22%
                                            All Other Felons (22%)

                                            Unknown (17%)
                       28%

      Note: The unknown category (17 percent) represents cases whose offense codes were not recorded
      electronically in the OIG’s Allegation and Case Investigative System. However, the type of crime
      should be recorded in the paper documentation associated with the confirmation of the warrant for
      these cases.

According to an SSA publication on Rep Payees,13 almost all children under age 18
have Rep Payees, and it is usually a parent. However, in our opinion, parents who are
fugitives should not be allowed to serve as their child’s Rep Payee unless the Agency
has re-evaluated their suitability and determined they are still in the best position to
manage the child’s Social Security funds.

For example, one recipient had her SSI payments stopped in January 2002 because
she had an outstanding felony warrant for fraud. The warrant was dated
February 2000, and SSA assessed an overpayment from February 2000 through
December 2001. This fugitive was also a Rep Payee for her two sons and managed a
total of $22,691 in Social Security funds for them over a 24-month period. As of
May 2002, the fugitive was still a Rep Payee despite the fact that (1) her own SSI
payments were stopped because of her fugitive status and (2) SSA field office staff
noted that the mother “…will not listen [to her Rep Payee] reporting responsibilities…”
and was “uncooperative.”




13
     SSA Publication No. 05-10076, A Guide For Representative Payees, April 1997.
Page 7 – The Commissioner


SSA’s Monitoring of Rep Payees

Our review of SSA’s case folders and Rep Payee accounting reports for the fugitive
Rep Payees and their beneficiaries revealed the following.

      §   Only one case folder contained information regarding a Rep Payee suitability
          review after SSA was notified of the Rep Payee’s status as a fugitive felon. In
          this case, SSA contacted the fugitive Rep Payee in January 2002 regarding her
          felony conviction. However, SSA did not terminate her as a Rep Payee even
          though the Agency stopped her own SSI payments because she was a fugitive.
          SSA staff documented in the case folder that the Rep Payee should continue to
          serve the beneficiary because the crime was a misdemeanor. However, our
          audit verified the Rep Payee’s own SSI payments were stopped under
          P.L. 104-193 for either a felony or parole/probation violation14—not a
          misdemeanor.

      §   Only 82 of the 150 beneficiaries who were required to have annual Rep Payee
          reports submitted to SSA by their Rep Payees appeared to have done so.15
          SSA did not have a record of the required report being submitted by the
          remaining 68 beneficiaries. Therefore, it appears the fugitive Rep Payees for
          these 68 beneficiaries either (1) did not file the required reports in accordance
          with their Rep Payee responsibilities or (2) filed the reports, but SSA could not
          locate them. According to the SSA Operations Division staff who retrieved the
          Rep Payee reports for us, if the report was submitted as required, the Agency
          would most likely have a copy of it; therefore, the staff concluded that these Rep
          Payees did not file the reports, as required.

Cases Appropriately Handled by SSA

In our opinion, SSA should not allow fugitive felons and parole or probation violators to
serve as Rep Payees unless SSA has re-evaluated their suitability and determined they
should be allowed to continue to serve as Rep Payees. However, SSA does not
specifically have a policy requiring re-evaluations of fugitives serving as Rep Payees.

To determine whether SSA replaced Rep Payees who were fugitives, we examined
SSA’s files of terminated Rep Payees. Based on our review, we estimate SSA replaced
67 Rep Payees upon learning the Rep Payees were fugitives. (See Appendix B for
details of our sampling methodology.) Specifically, our review of two samples of
terminated Rep Payee records found that a total of eight Rep Payees were terminated
immediately after SSA became aware of their fugitive status. For the remaining
142 terminated Rep Payee records in both samples:


14
     Parole or probation violators may have initially been charged with misdemeanors.
15
  We did not request the Rep Payee accounting report if the fugitive was a Rep Payee for the beneficiary
for less than a year.
Page 8 – The Commissioner


     §   58 were listed in the MRPF as being terminated as Rep Payee for themselves—
         and had not actually served as another beneficiary’s Rep Payee; and

     §   84 were not terminated as a result of being fugitives—most were terminated
         before the individuals became fugitives.

Additionally, we notified SSA that 121 fugitives were Rep Payees.16 Since we notified
SSA, the Agency:

     §   replaced 15 of the fugitives with more suitable Rep Payees;

     §   took no action to replace 10 fugitives whose own SSI payments were reinstated
         since their fugitive warrants were resolved after January 2002; and

     §   did not replace the remaining 96 Rep Payees, who remained fugitives as of
         July 2002.

In July 2002, SSA established a workgroup to develop an official policy pertaining to
fugitives who are serving as Rep Payees.

CONCLUSIONS AND RECOMMENDATIONS

SSI recipients—whose own payments were suspended because they were fugitives—
continued to serve as Rep Payees for other Social Security beneficiaries. Although we
estimate that SSA terminated approximately 67 Rep Payees because of their fugitive
status, SSA needs to identify and re-assess all fugitives who are acting as Rep Payees.
We believe a Rep Payee who is a fugitive for a felony or parole/probation violation is
not in the best position to ensure that Social Security funds are used appropriately and
in the beneficiary’s best interests. Therefore, we recommend that SSA:

1. Evaluate the 96 fugitives who continue to serve as Rep Payees to determine
   whether they are still suitable.

2. Assess the 10 Rep Payees who are no longer considered fugitives to determine
   whether they are still suitable to serve as Rep Payees.

3. Establish and implement a policy to query data bases, such as the MRPF, whenever
   SSI payments are suspended due to a recipient’s fugitive status to ensure a
   suitability review is performed when the fugitive is also a Rep Payee.




16
  In February 2002 we notified SSA of 79 fugitive Rep Payees. Then, in July 2002, we notified SSA of an
additional 42 Rep Payees—for a total of 121 Rep Payees.
Page 9 – The Commissioner


AGENCY COMMENTS
In response to our draft report, SSA agreed with all of our recommendations.
Specifically, SSA will review the cases cited in Recommendations 1 and 2 by the end of
October 2002 and establish a workgroup to develop processing instructions for handling
this workload. (See Appendix C for SSA's comments.)




                                              James G. Huse, Jr.
                                                Appendices
APPENDIX A – Acronyms

APPENDIX B – Sampling Methodology and Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A
Acronyms
 MBR         Master Beneficiary Record

 MRPF        Master Representative Payee File

 OASDI       Old-Age, Survivors and Disability Insurance

 P.L.        Public Law

 POMS        Program Operations Manual System

 Rep Payee   Representative Payee

 SSA         Social Security Administration

 SSI         Supplemental Security Income

 SSR         Supplemental Security Record
                                                                           Appendix B
Sampling Methodology and Results
To determine how many Supplemental Security Income (SSI) recipients suspended due
to their fugitive status had also been terminated as representative payees (Rep Payee),
we conducted two matches. First, we matched our data extract of 6,129 recipients
whose SSI payments were terminated1 as of January 2002 because of their fugitive
status against the file of terminated Rep Payees. This match resulted in 722 records.
We selected a random sample of 100 cases from this population.

                           Sample Results and Attribute Projection
     Population size                                                                          722
     Sample size                                                                              100
     Sample cases where the Rep Payees were terminated because                                  4
     of their fugitive status
     Point estimate - projection of cases in the population where the                          29
     Rep Payees were terminated due to their fugitive status
             Projection lower limit                                                            10
             Projection upper limit                                                            62
        Note: All projections are at the 90-percent confidence level.

Secondly, we matched our data extract of 4,417 SSI recipients whose SSI payments
were suspended as of January 2002 because they were fugitives against SSA’s file of
terminated Rep Payees. This match resulted in 473 records. We selected a random
sample of 50 cases from this population.

                           Sample Results and Attribute Projection
     Population size                                                                          473
     Sample size                                                                               50
     Sample cases where the Rep Payees were terminated because                                  4
     of their fugitive status
     Point estimate – projection of cases in the population where the                          38
     Rep Payees were terminated due to their fugitive status
             Projection lower limit                                                            14
             Projection upper limit                                                            80
        Note: All projections are at the 90-percent confidence level.

For reporting purposes, we added the point estimates from our 2 samples for a total of
67 cases where the Rep Payees were replaced due to their fugitive status.



1
  A fugitive’s SSI payment record is placed in suspense when SSA first stops the SSI payments. If the
fugitive’s payment record remains in suspense for 12 months, the record is then automatically terminated.
                  Appendix C
Agency Comments
                                           SOCIAL SECURITY

MEMORANDUM


Date:      September 27, 2002                                                         Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Identifying Representative Payees Who Had
           Their Own Benefits Suspended Under the Fugitive Provisions of Public Law 104-193”
           (A-01-02-12073)—INFORMATION


           We appreciate OIG's efforts in conducting this review. We agree that those cases where a fugitive
           felon is serving as a representative payee warrant the scrutiny that OIG recommends. As we
           noted in the exit conference for this review, section 103 of H.R. 4070, which the Agency
           supports, provides that fugitive felons will not be allowed to serve as representative payees.
           (This bill has passed the House of Representatives and was sent to the Senate Finance Committee
           on June 27, 2002.)

           Our comments on the report content and recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Dan Sweeney on extension 51957.

           Attachment:
           SSA Response




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“IDENTIFYING REPRESENTATIVE PAYEES WHO HAD THEIR OWN BENEFITS
SUSPENDED UNDER THE FUGITIVE PROVISIONS OF PUBLIC LAW 104-193”
(A-01-02-12073)


Recommendation 1

Evaluate the 96 fugitives who continue to serve as representative payees (Rep Payee) to
determine whether they are still suitable.


Comment

We agree and will refer the cases to the appropriate regional offices for their necessary action.
We will request that the regions complete the reviews and provide feedback on each case by the
end of October 2002.

Recommendation 2

Assess the 10 Rep Payees who are no longer considered fugitives to determine whether they are
still suitable to serve as Rep Payees.


Comment

We agree and will refer the cases to the appropriate regional offices for their necessary action.
We will request that the regions complete the reviews and provide feedback on each case by the
end of October 2002.

Recommendation 3

Establish and implement a policy to query data bases, such as the Master Representative Payee
File, whenever Supplemental Security Income payments are suspended due to a recipient’s
fugitive status to ensure a suitability review is performed when the fugitive is also a Rep Payee.


Comment

We agree. We have policy in place that provides for considering a replacement payee when the
existing payee "is otherwise no longer suitable to act as payee.” In addition, we have established
an intercomponent workgroup to develop field office processing instructions for handling this
workload. We expect to release the instructions before the end of the calendar year.




                                              C-2
                                                                 Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

   Judith Oliveira, Deputy Director, (617) 565-1765

Staff Acknowledgments

In addition to those named above:

   Kevin Joyce, Auditor

   David Mazzola, Auditor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-02-12073.
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA, as well as
conducting investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to Congressional requests
for information, and also communicates OIG’s planned and current activities and their results to
the Commissioner and Congress.
                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
